Soo
I

C@QCKLE

2311 Douglas Street 1 E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga l B gre f S - contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-710

CONNECTICUT FINE WINE AND SPIRITS, LLC,
dba Total Wine & More,
Petitioner,

Vv.
MICHELLE H. SEAGULL, COMMISSIONER,
CONNECTICUT DEPARTMENT OF
CONSUMER PROTECTION, et al.,
Respondents.

WINE & SPIRITS WHOLESALERS OF CONNECTICUT,
INC., CONNECTICUT BEER WHOLESALERS
ASSOCIATION, INC., CONNECTICUT RESTAURANT
ASSOCIATION, CONNECTICUT PACKAGE STORES
ASSOCIATION, INC., BRESCOME BARTON, INC.,
Intervenors—Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of March, 2020, send out
from Omaha, NE 3 package(s) containing * copies of the BRIEF OF INTERVENORS-RESPONDENTS IN OPPOSITION
TO PETITION FOR A WRIT OF CERTIORARI in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DEBORAH SKAKEL ROBERT M. LANGER*
CRAIG M. FLANDERS BENJAMIN H. DIESSEL
BLANK ROME LLP TADHG DOOLEY
1271 Avenue of the Americas WIGGIN AND DANA LLP
New York, NY 10020 20 Church Street
212-885-5000 Hartford, CT 06103
dskakel@blankrome.com 860-297-3700

rlanger@wiggin.com

Counsel for Wine & Spirits
Wholesalers of Connecticut, Inc.

*Counsel of Record

Subscribed and sworn to before me this 3rd day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

     

thes? Ondiw-h, Ble

Affiant

 

GENERAL HOTARY-State of fiebraska
RENEE J. GOSS
A My Comm. Exp. September §, 2028

Notary Public 39260
SERVICE LIST

Carter G. Phillips

Sidley Austin LLP

1501 K Street, N.W.

Washington, DC 20005

202-736-8270

ephillips@sidley.com

Counsel for Petitioner Connecticut Fine Wine and Spirits, LLC, dba Total Wine & More
*3 copies

Robert Joseph Deichert

State of Connecticut, Office of the Attorney General

165 Capitol Avenue

Special Litigation Department, Suite 5000

Hartford, CT 06106

860-808-5020

Robert.Deichert@ct.gov

Counsel for Respondents John Suchy, Director, Division of Liquor Control, and Commissioner
Michelle H. Seagull, Department of Consumer Protection

*3 copies

Jeremy C. Marwell

Vinson & Elkins LLP

2200 Pennsylvania Avenue, NW, Suite 500W

Washington, DC 20037

202-639-6500

jmarwell@velaw.com

Counsel for Amicus Curiae Southern Glazer's Wine and Spirits, LLC
*1 copy
